OIG Audit Report GR-90-08-002

Office of Justice Programs Grants Awarded to the Washington Department of Corrections, Olympia, Washington

Audit Report GR-90-08-002


March 2008
Office of the Inspector General


Executive Summary


 The Office of the Inspector General, Audit Division, has completed an audit of the Serious and Violent Offender Reentry Initiative Grant ( 2002‑RE‑CX‑0042) and the Protecting Inmates and Safeguarding Communities Grant ( 2004‑RP‑BX‑0011) awarded by the United States Department of Justice, Office of Justice Programs (OJP), to the Washington Department of Corrections (WADOC) located in Olympia, Washington. The purpose of OJP’s Serious and Violent Offender Reentry Initiative grant program was to provide funding to state and local governments to develop and implement an institutional and community corrections-based offender reentry program to reduce recidivism, increase public safety, and successfully reintegrate serious and violent offenders back into the community. OJP’s Protecting Inmates and Safeguarding Communities grant program was created as a result of the Prison Rape Elimination Act of 2003 in an effort to eradicate sexual assaults in correctional facilities. As of September 30, 2004, OJP had awarded the WADOC a total of $3,145,962 for the two grants. 
 The objective of the audit was to determine whether cost reimbursements claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. 
 We tested the WADOC’s compliance with essential grant conditions, including budget management and control, grant expenditures, drawdowns, program income, subgrantees, local match requirements, and reporting requirements. 
 The WADOC generally complied with grant requirements. However, we identified several concerns with its manner of accounting and lack of adequate support for certain grant-related transactions. Specifically, we found that the WADOC accounted for its financial transactions in a manner that did not allow for whole transactions to be identified. In addition, the WADOC accounted for certain local match transactions in a manner that did not allow for a system-generated trail to provide support for those transactions. We also identified late submissions of Financial Status Reports and Progress Reports, unauthorized budget movement, unauthorized payroll expenditures, and unsupported expenditures and local match claims. As a result, we made 11 recommendations to remedy questioned costs totaling $679,234 and to improve the WADOC’s grant management practices. 
 We discuss these matters in the Findings and Recommendations Section of the report. We discussed the results of our audit with officials from the WADOC and have included their comments in the report, as applicable. In addition, we requested written responses to our draft report from the WADOC and OJP, which are included in this report as appendices IV and V, respectively. Based on the responses we received, both the WADOC and OJP agreed with our 11 recommendations. Our audit objective, scope and methodology appear in Appendix II of this report. 







Return to OIG Home Page